           U.S. Department of
                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit—DOT’s                              Date:    July 20, 2005
           Information Security Program
           Project Number: 05F3026F000
                                                                              Reply To
  From:                                                                        Attn Of:   JA-20
           Theodore P. Alves
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Chief Information Officer, DOT

           The Office of Inspector General is initiating its annual audit of the Department of
           Transportation’s (DOT) Information Security Program, as required by the Federal
           Information Security Management Act of 2002 (FISMA). As part of our review,
           we will answer Office of Management and Budget (OMB) questions and follow
           up on key issues from last year’s report.

           The audit objective is to determine the effectiveness of DOT’s IT security
           program. Specifically, we will (1) measure progress made in implementing
           security requirements; (2) assess FAA’s progress in correcting air traffic control
           system security deficiencies; and (3) assess DOT’s progress in implementing IT
           investment management controls.

           The audit will be conducted at DOT Headquarters in Washington, D.C. We will
           contact your staff to establish an entrance conference in order to discuss the audit.
           The project manager for the audit is Philip deGonzague. If you have any
           questions, please call Rebecca Leng, Deputy Assistant Inspector General for
           Information Technology and Computer Security, at (202) 366-1488, or
           Ed Densmore, Program Director, at (202) 366-4350.

                                                    #

           cc: Federal Aviation Administrator
               Martin Gertel, M-1
               CIO Council Members
